No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOSE J. & GUILLERMINA AGUILAR — PETITIONER
(Your Name)
VS.
PHH MORTGAGE, OCWEN, SLS

— RESPONDENT(S)

PROOF OF SERVICE
EVA VAHLGREN

_________________, do swear or declare that on this date,
, 2021_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

February 08

The names and addresses of those served are as follows:
SARA L. MARKERT 1920 MAIN ST., STE 1000, IRVINE, CA 92614
AUSTIN P. NAGEL & KIRSTEN RAMIREZ 3160 Crow Canyon Place, Suite 215, San Ramon, CA 94583
Bradford E. Klein 30 Corporate Park, Suite 450. Irvine, CA 92606

I declare under penalty of perjury that the foregoing is true and correct.
Executed on FEBRUARY 08,

, 20_21

8c/
(Signature)

